TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Affordable Care Act: The Number of
                Taxpayers Filing Tanning Excise Tax Returns
                          Is Lower Than Expected



                                      September 22, 2011

                              Reference Number: 2011-40-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


AFFORDABLE CARE ACT: THE                                The number of taxpayers filing tanning services
NUMBER OF TAXPAYERS FILING                              excise tax returns is much lower than expected.
TANNING EXCISE TAX RETURNS IS                           According to IRS documents, in April 2010, the
LOWER THAN EXPECTED                                     Indoor Tanning Association estimated that
                                                        25,000 businesses were providing indoor
                                                        tanning services. However, the actual number
Highlights                                              of businesses liable for the tax has been difficult
                                                        to determine with any degree of accuracy.
                                                        Identifying these taxpayers has been one of the
Final Report issued on                                  more challenging tasks the IRS has faced when
September 22, 2011                                      implementing this provision. For the first three
                                                        applicable quarters, the number of Federal
Highlights of Reference Number: 2011-40-115             excise tax forms reporting tanning taxes has
to the Internal Revenue Service Commissioners           averaged approximately 10,300.
for the Small Business/Self-Employed Division
and the Wage and Investment Division.                   The IRS could have taken more timely actions to
                                                        contact taxpayers who may owe the tax. By the
IMPACT ON TAXPAYERS                                     time notices were issued, tanning excise tax
The Patient Protection and Affordable Care Act          returns had been due for three quarters. Late
and the Health Care and Education                       filing of these returns would result in the
Reconciliation Act were signed into law in              taxpayer owing the unpaid tax, plus interest and
March 2010. This legislation contains revenue           penalties. In addition, the information used to
provisions anticipated to generate $438 billion in      identify these taxpayers appears incomplete.
the form of new taxes, fees, and penalties. One         Furthermore, TIGTA advised the IRS that the
of these new taxes is an excise tax on indoor           notice did not contain some pertinent
tanning services (tanning tax) which became             information. The IRS added this information
effective on July 1, 2010, and is 10 percent of         before mailing.
the amount paid for tanning services. The tax is        Finally, the publication containing information
paid by the person receiving the service and is         about excise tax requirements was not updated
collected by the service provider. The tanning          until more than a year had passed since the
tax is due and payable quarterly.                       provision became effective.
WHY TIGTA DID THE AUDIT                                 WHAT TIGTA RECOMMENDED
This audit was initiated because the tanning tax        TIGTA recommended that the IRS perform
was a new provision in the law that became              further analyses of the data sources used,
effective soon after passage, which increased           including records with incomplete address
the potential risks involved with implementation.       information, to determine whether a large
It has been estimated that there could be about         number of tanning businesses were not
25,000 tanning businesses affected by the tax.          identified, monitor the results from the notice
The objective of our audit was to determine             mailing to determine whether additional data
whether the Internal Revenue Service (IRS)              sources are warranted, and update the excise
effectively implemented this tax.                       tax publication to include tanning tax
                                                        information.
WHAT TIGTA FOUND
                                                        In their response to the report, IRS officials
The IRS developed an outreach plan, updated
                                                        agreed with our recommendations. The IRS
the excise tax form and instructions, and made
                                                        plans to perform the analysis suggested, monitor
preparations for receiving and processing tax
                                                        the results of the notice mailing, and consider
returns with the tax. The IRS also developed a
                                                        additional actions based on the results. The
plan for dealing with noncompliance, including
                                                        excise tax publication was revised in July 2011
initiating audits and issuing notices to taxpayers
                                                        to include tanning tax information.
who may potentially owe the tax.
                                                    DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  September 22, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Affordable Care Act: The Number of Taxpayers
                                 Filing Tanning Excise Tax Returns Is Lower Than Expected
                                 (Audit # 201140001)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) effectively implemented the excise tax on the indoor tanning services provision of the
 Patient Protection and Affordable Care Act1 legislation. This audit is included in our Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Implementing
 Health Care and Other Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
 McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services), at
 (202) 622-5916.




 1
     Pub. L. No. 111-148, 124 Stat. 119 (2010).
                                 Affordable Care Act: The Number of Taxpayers
                          Filing Tanning Excise Tax Returns Is Lower Than Expected




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Immediate Steps Were Taken to Implement the
          Excise Tax on Indoor Tanning Services ....................................................... Page 3
          The Number of Tanning Excise Tax Returns Is
          Much Lower Than Expected ......................................................................... Page 5
                    Recommendations 1 and 2: ............................................... Page 8

          Some Information Provided to Taxpayers Was
          Delayed or Required Improvement ............................................................... Page 8
                    Recommendation 3:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Example of Notice Sent to Taxpayers ................................. Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
               Affordable Care Act: The Number of Taxpayers
        Filing Tanning Excise Tax Returns Is Lower Than Expected




                     Abbreviations

IRS            Internal Revenue Service
NAICS          North American Industry Classification System
                            Affordable Care Act: The Number of Taxpayers
                     Filing Tanning Excise Tax Returns Is Lower Than Expected




                                           Background

On March 23, 2010, the Patient Protection and Affordable Care Act1 (Affordable Care Act) was
signed into law. Along with amendments in the Health Care and Education Reconciliation Act
of 2010,2 which was signed on March 30, 2010, this legislation contains revenue provisions
anticipated to generate $438 billion3 in the form of new taxes, fees, and penalties. One of these
new taxes is an excise tax on indoor tanning services (referred to hereafter as the tanning tax).4
Excise taxes are levied on a wide variety of goods, services, and activities. They may be
imposed at the time of sale by a manufacturer or retailer or at the time a service is rendered to a
consumer. Many of the taxes are set aside into trust funds earmarked for related capital projects,
such as highway and airport improvements. Excise taxes are independent of income taxes and
are reported separately.
This new excise tax applies to indoor tanning services paid for on or after July 1, 2010, and is
10 percent of the amount paid for the tanning services. Indoor tanning services are defined as
services using ultraviolet lamps to induce skin tanning.
There are other services provided by tanning salons that
are excluded from the tanning tax. It does not apply to
‘spray’ tans or topical creams or lotions. In addition, it
does not apply to phototherapy services performed by
licensed medical professionals, during which individuals
are exposed to light for the treatment of certain medical
conditions. Tanning services are not taxable when
provided by qualified physical fitness facilities (such as a
workout facility or gym). The fitness facility must meet
various tests to be exempt.
Liability for the tax arises at the time of payment for services, and the tax is collected by the
service provider from the person paying for the indoor tanning services. The tax is then reported
and paid to the Internal Revenue Service (IRS) using the Quarterly Federal Excise Tax Return
(Form 720). Because the tanning tax became effective on July 1, 2010, the end of the first
quarterly period was September 30, 2010. The due date for these quarterly returns is generally
1 month after the end of the reporting period, or October 31, 2010, for the first quarter the tax



1
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
  Pub. L. 111-152, 124 Stat. 1029.
3
  Joint Committee on Taxation estimated revenue effects, JCX-17-10, March 20, 2010.
4
  P.L.111-148, Section 5000B.
                                                                                            Page 1
                             Affordable Care Act: The Number of Taxpayers
                      Filing Tanning Excise Tax Returns Is Lower Than Expected



was required to be reported. The return can be filed early if the entity is going out of business.
An Employer Identification Number is required to file these returns.
This review was performed at the Fresno Campus5 in Fresno, California, during the period
September 2010 through June 2011. It included a review of Forms 720 filed nationwide and
discussions with IRS personnel assigned to the Small Business/Self-Employed Division
Headquarters in Lanham, Maryland, and the Wage and Investment Division Headquarters in
Atlanta, Georgia. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                            Affordable Care Act: The Number of Taxpayers
                     Filing Tanning Excise Tax Returns Is Lower Than Expected




                                     Results of Review

Immediate Steps Were Taken to Implement the Excise Tax on Indoor
Tanning Services
Because the tanning tax went into effect soon after the law was signed (approximately 3 months
after enactment),6 it was imperative that the IRS quickly prepare for its implementation. The IRS
assessed the provision and determined what overall actions were needed, broke them down into
specific action items, and tracked the status of the items in a computer system dedicated to
implementation of new laws. These action items and the general status of the implementation of
the various Affordable Care Act provisions were monitored by an Executive Steering
Committee, which met weekly.

The IRS developed an outreach plan for taxpayers who may owe the tax
As part of the implementation of the tanning tax, the IRS developed an outreach plan. Because
the tax was aimed at a specific taxpayer population, the IRS was able to target the associated
outreach accordingly. Information regarding the new filing requirements was disseminated in
many different forms, including:
    •   Adding information to the IRS web site (www.IRS.gov).
    •   Hosting live webinars and uploading videos on the YouTube web site7
        (www.youtube.com).
    •   Outreach to industry associations.
    •   Contacting State licensing bureaus.
    •   Issuing electronic bulletins to tax professionals.
    •   Giving seminars at the Nationwide Tax Forums.

Forms and instructions were updated accurately and timely to assist taxpayers
with filing
Although general outreach related to the tanning tax was important, it was also vital to update the
actual forms and instructions required to report the tax. Accordingly, the IRS revised

6
  The law was enacted on March 23, 2010, and the Tanning Tax provision became effective on July 1, 2010. As of
this date, service providers were required to begin collecting the tax.
7
  YouTube is a video-sharing web site on which users can upload, share, and view videos.
                                                                                                        Page 3
                          Affordable Care Act: The Number of Taxpayers
                   Filing Tanning Excise Tax Returns Is Lower Than Expected



Form 720 and the associated instructions to reflect the tax. These revisions included an
additional line added to the Form 720 and a paragraph describing the tax in the ‘What’s New’
section on the first page of the instructions. The
revised Form 720 instructions also included
three paragraphs devoted to the tanning tax
(see excerpt, right). This information accurately
reflected the statute and regulations and appeared
sufficient to enable a taxpayer to file an accurate
return.
The revisions were completed in July 2010,
which was early enough for taxpayers to obtain
them for information prior to filing. While the
tax became effective July 1, the first returns were
not due until October 2010. Taxpayers could
have filed earlier if they were going out of
business. However, there would likely have been
very few entities that went out of business in the
first few weeks of July after the tax went into
effect and before the revised Form 720 and
associated instructions were updated.

Tax return processing systems were updated to enable accurate processing of
returns reporting the tanning tax
There was a relatively short time period to prepare for receipt and processing of returns reporting
the tanning tax. Accordingly, the IRS had to immediately update the computer systems used for
processing tax returns.
The IRS receives both paper and electronically transmitted returns. While the basic processing
of these returns is similar, there are different computer systems required to accomplish this. The
IRS successfully updated these computer systems to enable both types of returns to be accepted
and processed timely. In general, the systems had to be updated to include a new abstract code
for the tanning tax, which is a unique number assigned to each of the excise taxes. We reviewed
documentation for the electronic return processing system that accepts and validates electronic
return information and determined that the new abstract code had been added to the system.
In order to verify that the paper return processing system was updated, we reviewed a sample of
returns reporting the tanning tax and determined whether they were being processed accurately.
Because we wanted to identify potential systemic problems, we selected a judgmental sample of
24 Forms 720 filed with the tanning tax that were processed through October 31, 2010. For each
return, we matched certain information on the tax return against that which posted to the


                                                                                            Page 4
                             Affordable Care Act: The Number of Taxpayers
                      Filing Tanning Excise Tax Returns Is Lower Than Expected



taxpayer’s account. This information included business name and address information as well as
the reported tax amount. We did not identify any issues or discrepancies.

The Number of Tanning Excise Tax Returns Is Much Lower Than
Expected
According to IRS documents, in April 2010 the Indoor Tanning Association estimated that
25,000 businesses were providing indoor tanning services, including approximately 15,000
stand-alone tanning salons and approximately 10,000 other businesses that offer tanning
services, such as spas, health clubs, and beauty salons.8 Prior to the enactment of the tanning tax
provision, the number of excise tax returns filed was approximately 25,000 per quarter, so it
appeared this new tax had the potential to double the number of Forms 720 filed.9 However, the
actual number of businesses liable for the tax has been difficult to determine with any degree of
accuracy; therefore, this estimate should be used with caution. Identifying these taxpayers has
been one of the more challenging tasks the IRS has faced when implementing this provision.
However, if this estimate is used as a general baseline, it is apparent that compliance with the
provision is much lower than expected. For the first three applicable quarters, the number of
Forms 720 reporting tanning taxes has averaged close to 10,300.
                 Figure 1: Excise Tax Returns Filed With the Tanning Tax

      Quarter (period ended)                     Returns Filed                   Tanning Tax Reported

    September 30, 2010                               10,665                             $17.8 million

    December 31, 2010                                10,677                             $15.7 million

    March 31, 2011                                    9,628                             $20.9 million
Source: The IRS’s Compliance Data Warehouse: Forms 720 reporting tanning tax filed as of July 26, 2011.

The Congressional Joint Committee on Taxation estimated this tax would raise less than
$50 million in the last 3 months of Fiscal Year 2010 and raise $200 million for Fiscal
Year 2011. However, as indicated above, the returns and associated receipts have been lower
than expected, so the amount projected for Fiscal Year 2011 may not be reached. However,
receipts could increase over time as more taxpayers become aware of the tax and come into
compliance.


8
  In a July 11, 2011, Bloomberg.com article, the Indoor Tanning Association stated that due to the weak economy
and the tanning tax, the number of tanning salons in the United States had decreased.
9
  The estimated number of indoor tanning businesses does not necessarily equate to the required number of filers. A
business entity with multiple tanning locations may only be required to file one excise tax return.
                                                                                                           Page 5
                            Affordable Care Act: The Number of Taxpayers
                     Filing Tanning Excise Tax Returns Is Lower Than Expected



The IRS made plans to address compliance issues, but more timely action was
needed
Although most taxpayers voluntarily pay the taxes that are due by law, the IRS has to have a plan
to deal with those who do not. Two primary forms of noncompliance include underreporting
(not reporting one’s full tax liability on a timely filed return), and nonfiling (not filing required
returns on time and not paying the full amount of tax that should have been shown on the
required return). To effectively administer the tax code, the IRS has to take specific actions to
address these situations. In the case of the tanning tax, this is complicated by the fact that it is a
new tax, so some taxpayers may not be aware of their obligations. To illustrate this further, an
IRS document describing compliance challenges states, “The tax is new and unusual for this
industry, which has never experienced the imposition of a Federal excise tax on tanning services,
and thus the overwhelming majority have never filed an excise tax return.”10
To meet these challenges, the IRS developed a compliance plan that addresses both
underreporting and nonfiling. To obtain information pertaining to underreporting, the IRS plans
to audit a number of excise tax returns reporting the tanning tax. Information from these audits
will enable the IRS to refine its methods to identify and address underreporting.
With regard to nonfiling, the IRS recognized that some taxpayers who had not filed required
returns may have simply been unaware of the new tax rather than willfully ignoring the law.
Accordingly, on June 2, 2011, the IRS issued notices to approximately 14,000 taxpayers who
were identified through various data sources as potentially owing the tax but had not filed a
Form 720 during the third or fourth quarters of Calendar Year 2010. These notices informed the
taxpayer that it appeared they may owe the tax, provided background information, and then
asked for a response as to why the taxpayer believes they are not liable. An example of this
notice is provided in Appendix IV. Although we agree with this approach in general, we believe
it should have been taken sooner. Because the tanning tax was a brand new tax imposed on a
group of taxpayers with no previous experience with excise taxes, it was imperative that the IRS
attempt to inform taxpayers of their filing responsibilities and bring them into compliance in a
timely manner.
Initially, the IRS researched ways to identify these taxpayers using information available
internally. One source, the North American Industry Classification System (NAICS),11 is a code
used to identify industry segments. However, this code is not required to be provided on filed
tax returns, and further research indicated it could not be relied upon. Furthermore, broad
searches by business name were not deemed effective because many of these businesses do not


10
   The IRS’s Compliance Initiative Project Part Two – Indoor Tanning Tax Compliance Initiative, approved
September 27, 2010.
11
   The NAICS is used by business and government to classify business establishments according to type of
economic activity. The NAICS numbering system employs a code with up to six digits to designate specific
industries.
                                                                                                           Page 6
                            Affordable Care Act: The Number of Taxpayers
                     Filing Tanning Excise Tax Returns Is Lower Than Expected



have ‘tan’ or ‘tanning’ in their name. Accordingly, as early as April 2010, the IRS was planning
to contact State governments for tanning data. However, obtaining and formatting data from the
two external sources selected (State licensing bureau data and a commercial business listing) was
not completed until May 2011, more than 1 year later.
There were various reasons for this delay. The IRS Excise Tax Office devoted limited resources
to the effort. Only one full-time employee performed the bulk of the data manipulation
(although other employees assisted at various stages).12 In addition, there was a considerable
amount of time needed to obtain and format data from 18 different State licensing bureaus,
although this should have been anticipated by the IRS. Moreover, the commercial business
listing was always available and could have been obtained and utilized earlier in the process.
By the time the combined data were used to issue notices to potential nonfilers in early June
2011, the due dates for three quarters of returns had passed. Taxpayers who owed the tanning
tax and were not aware of the filing requirement would have then had three delinquent returns
due, along with the associated tax, interest, and penalties. In addition, if the taxpayers had not
been collecting the tax from their customers, they would also owe the tax out-of-pocket, possibly
affecting the viability of their business.

The data used to identify nonfilers appear to be incomplete
As indicated above, the IRS obtained external data from two sources, State licensing bureaus and
a commercial business listing. The steps the IRS took to manipulate and format the data were
logical and appropriate and included matching the databases against information on IRS
computers to obtain the Employer Identification Number for each taxpayer, as well as
eliminating duplicates. However, the end product appears to be missing many tanning
businesses:
     •   After the various data manipulation steps were completed, the result was approximately
         19,00013 unique taxpayers with potential tanning businesses, well below the 25,000
         tanning businesses estimated by the Indoor Tanning Association.
     •   Approximately 7,000 of the 10,000 taxpayers (70 percent) who had filed tax returns
         reporting the tanning tax in the third or fourth quarters of Calendar Year 2010 did not
         appear in the externally obtained data.




12
   According to the IRS, two Computer Audit Specialists, a Program Analyst, and a Computer Assistant provided
support and assistance.
13
   The commercial business listing contained approximately 21,000 tanning businesses. After eliminating
duplicates, there were approximately 19,000 unique taxpayers, approximately 2,000 of which had incomplete or
inaccurate address information, and approximately 3,000 of which had filed tax returns. The balance of
approximately 14,000 taxpayers had not filed a Form 720 reporting the tanning tax and were sent notices.
                                                                                                        Page 7
                          Affordable Care Act: The Number of Taxpayers
                   Filing Tanning Excise Tax Returns Is Lower Than Expected



   •   Notices were not mailed to approximately 2,000 taxpayers identified by these data
       sources due to incomplete or inaccurate address information.
The IRS indicated that obtaining external industry data and mailing notices was only the first
step in a continuing effort to identify nonfilers and bring them into compliance, and the data
were not expected to contain the full population of taxpayers potentially owing the tanning tax.
However, it appears more could be done to determine why so many taxpayers were not included
in the initial external data. Depending on the results of the notice mailing, obtaining data from
other sources may be warranted.

Recommendations
The Director, Small Business/Self-Employed Specialty Programs, should:
Recommendation 1: Perform further analyses of the data sources used, including the records
with incomplete address information, and determine whether a large number of tanning
businesses were not identified.
       Management’s Response: IRS management agreed with this recommendation and
       will perform the analysis suggested.
Recommendation 2: Monitor the results from the notices sent to taxpayers who could
potentially owe the tanning tax and, if results warrant, consider obtaining additional data sources
for compliance use.
       Management’s Response: IRS management agreed with this recommendation and
       indicated that this was the intent of the notice program the IRS developed. The IRS will
       consider additional actions according to the results.

Some Information Provided to Taxpayers Was Delayed or Required
Improvement
As discussed previously, the IRS provided tanning tax information to taxpayers through a wide
variety of methods. However, a significant publication related to excise taxes was delayed for a
long period of time, and the notice that was issued to taxpayers required improvement.

The publication with excise tax information was not updated at the same time as
Form 720 and its instructions
More than 1 year after the passage of the legislation providing for the tanning tax, Excise Taxes
(Publication 510) had not been updated to include tanning tax information. The updated
Publication 510 was finally issued in July 2011.



                                                                                            Page 8
                          Affordable Care Act: The Number of Taxpayers
                   Filing Tanning Excise Tax Returns Is Lower Than Expected



Information should be provided to taxpayers in a timely manner in order to assist them with
meeting their tax obligations. This is especially true of new taxes imposed on a unique
population of taxpayers who historically have not had to pay excise taxes and who may not have
any experience with them.
One contributing factor for the delay was that the IRS waited until Congress passed legislation in
late Calendar Year 2010 affecting other excise tax credits and the IRS did not want to have to
update the publication twice in a relatively short period of time. However, the publication was
not updated until July 2011, more than 6 months after the passage of the other legislation. The
IRS also stated that this publication does not have a specified update schedule like most other
publications (e.g., annually) and that it is a lower priority compared to updating forms and
instructions.
Because this publication did not contain current information, taxpayers could not use it as a
source of information for the proper reporting of this new tax, even though more than a year had
passed since its enactment. Therefore, a taxpayer who consulted the publication for information
may have reached the wrong conclusion related to whether the tax is applicable.

The notice to be issued to potential nonfilers did not contain pertinent
information
The notice to be issued to potential nonfilers did not contain pertinent information regarding the
possible exemptions to the tax. It did not include information about the qualified physical fitness
facility exemption allowed by IRS regulations. This notice is intended as a compliance tool to
encourage taxpayers to file (if required) or to enable the IRS to determine that the taxpayer is not
subject to the tax. To serve this purpose, it should contain sufficient information to enable the
taxpayer to make this determination with minimum burden. This would include providing an
overview of the most important aspects of the law. We could not specifically determine why the
IRS did not include all the important tax information in the notice. It appears that the IRS relied
upon references to other specific information sources, such as the Form 720 instructions and the
IRS web site, to sufficiently inform taxpayers about the tax.
Some physical fitness facilities offer tanning services and would be exempt from the tax.
Providing specific information regarding this exemption would enable taxpayers to resolve the
issue more effectively and with minimum burden.
We reported our concerns to the IRS and it took immediate corrective action. The draft notice
was revised in response to our concerns. Information related to the qualified physical fitness
facility exemption was included in the background information, and a specific response item in
the questionnaire portion of the notice was added to indicate whether the taxpayer was claiming
this exemption. We consider this revision sufficient to address our concerns.




                                                                                             Page 9
                         Affordable Care Act: The Number of Taxpayers
                  Filing Tanning Excise Tax Returns Is Lower Than Expected



Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure that
Publication 510 is updated to include information related to the excise tax on indoor tanning
services.
       Management’s Response: IRS management agreed with this recommendation and
       has already revised Publication 510, Excise Taxes, to include information concerning the
       Indoor Tanning Tax as of July 15, 2011.




                                                                                        Page 10
                               Affordable Care Act: The Number of Taxpayers
                        Filing Tanning Excise Tax Returns Is Lower Than Expected



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS effectively implemented the excise tax
on the indoor tanning services provision of the Patient Protection and Affordable Care Act1
(Affordable Care Act). To accomplish this objective, we:
I.         Determined whether adequate preparations were made to ensure affected service
           providers were notified of the tanning tax and its filing requirements.
           A. Assessed the adequacy of actions taken to identify the service provider population
              affected by the tanning tax.
               1. Reviewed the effectiveness of IRS actions to identify affected service providers.
               2. Determined whether we could identify the population using tax information
                  available to the Treasury Inspector General for Tax Administration and any other
                  data sources.
               3. Identified what data files and fields were available (name, NAICS code, etc.) and
                  if they could be used to identify affected taxpayers.
               4. Determined whether any actions were taken to mark the accounts of service
                  providers subject to the tanning tax. We determined whether a specific NAICS
                  code, or other type of indicator, could be implemented specific to tanning salons.
           B. Reviewed the feasibility of the IRS communicating the new filing requirements
              directly to the population of affected service providers.
               1. Reviewed the information used to make the decision to not communicate directly
                  with affected service providers during the initial implementation of the action
                  plan and determined whether it justified this decision.
               2. Determined whether a mass-mailed postcard would be feasible to inform the
                  affected service providers of filing requirements.
           C. Assessed the timeliness and accuracy of other outreach efforts related to the tanning
              tax.
               1. Obtained a copy of the overall outreach plan.



1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
                                                                                             Page 11
                             Affordable Care Act: The Number of Taxpayers
                      Filing Tanning Excise Tax Returns Is Lower Than Expected



             2. Performed a cursory review of each type of outreach effort in the plan for
                adequacy.
             3. Analyzed the plan and determined whether any outreach opportunities were
                missed in the plan.
         D. Determined whether forms, instructions, and publications related to the tanning tax
            were updated adequately and timely.
             1. Identified which forms, instructions, and publications were affected by the tax.
             2. Reviewed each for the adequacy of the information in relation to the statute and
                regulations and to determine whether they were updated in a timely fashion.
             3. Determined the cause for why items were not updated timely and the potential
                effect on taxpayers.
II.      Determined whether the IRS adequately prepared for the processing of tax returns
         reporting the tanning tax and whether it adequately monitored the actual receipts and
         processing of these returns.
         A. Determined whether the IRS updated the processing systems for paper and electronic
            tax returns so that it could accept and process returns reporting the new tax. We
            performed a cursory review of the actions taken to update these systems.
         B. Determined whether filed returns reporting the tanning tax were posted accurately.
             1. Using data obtained in step II.C.3, identified a judgmental sample of 24 returns
                reporting the tanning tax 2 that were processed during the first 3 weeks of
                October 2010. These returns were selected from a total of 117 returns processed
                during this period.
             2. Matched the entity and tax information on the sample returns against the posted
                data.
         C. Determined whether the IRS adequately planned for the increase in returns and
            whether it timely monitored the volume of returns filed reporting the tanning tax.
             1. Held discussions with IRS Excise Tax Program officials to determine what
                planning assumptions were made regarding the volume expected and what
                additional resources were committed.




2
  Requested 48 of the first 117 Quarterly Federal Excise Tax Returns (Form 720) filed for the third quarter
(July 1, 2010, thru September 30, 2010) and reviewed the first 24 returns received.
                                                                                                              Page 12
                             Affordable Care Act: The Number of Taxpayers
                      Filing Tanning Excise Tax Returns Is Lower Than Expected



             2. Held discussions with IRS Excise Tax Program officials regarding what steps
                were taken to monitor the volumes of incoming returns, and obtained copies of
                the weekly volume reports.
             3. Identified and downloaded return information from Forms 720 posted each week
                with Abstract Code 1403 using data obtained from the Treasury Inspector General
                for Tax Administration Data Center Warehouse.4 We validated the accuracy of
                the data by reviewing the data for discrepancies and formatting errors.
             4. Matched our data against IRS production reports showing total receipts of
                Form 720 with the tanning tax and reviewed for discrepancies.
III.     Determined whether the IRS developed an adequate plan to bring nonfilers into
         compliance with the law.
         A. Reviewed the adequacy of IRS actions related to tanning tax compliance.
             1. Obtained and reviewed the Compliance Initiative Project information to
                determine if it will effectively bring service providers into compliance.
             2. Obtained and reviewed the notice to be issued to potential nonfilers to determine
                if it would be effective for educating service providers.
         B. Identified the population the IRS used for the compliance actions described above and
            if it appeared adequate for this purpose.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s planning and outreach efforts to
ensure the tanning tax was collected and the associated tax returns were accurately and timely
filed, actions to ensure these returns were able to be accepted and processed, and actions taken to
ensure taxpayers are filing required returns and paying the correct amount of tax.




3
  An abstract code is a unique number assigned to each of the excise taxes. Abstract Code 140 identifies the indoor
tanning excise tax.
4
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the Treasury Inspector General for Tax Administration for the purpose of
analyzing data for ongoing audits.
                                                                                                           Page 13
                        Affordable Care Act: The Number of Taxpayers
                 Filing Tanning Excise Tax Returns Is Lower Than Expected



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Richard J. Calderon, Audit Manager
Roy E. Thompson, Audit Manager
Steven D. Stephens, Lead Auditor
Laura Paulsen, Auditor
Mark V. Willoughby, Auditor




                                                                                    Page 14
                        Affordable Care Act: The Number of Taxpayers
                 Filing Tanning Excise Tax Returns Is Lower Than Expected



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Research & Education, Wage and Investment Division
SE:W:CAR
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                    Page 15
         Affordable Care Act: The Number of Taxpayers
  Filing Tanning Excise Tax Returns Is Lower Than Expected



                                                Appendix IV

Example of Notice Sent to Taxpayers




                                                       Page 16
       Affordable Care Act: The Number of Taxpayers
Filing Tanning Excise Tax Returns Is Lower Than Expected




                                                     Page 17
       Affordable Care Act: The Number of Taxpayers
Filing Tanning Excise Tax Returns Is Lower Than Expected




                                                     Page 18
            Affordable Care Act: The Number of Taxpayers
     Filing Tanning Excise Tax Returns Is Lower Than Expected



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 19
       Affordable Care Act: The Number of Taxpayers
Filing Tanning Excise Tax Returns Is Lower Than Expected




                                                     Page 20
       Affordable Care Act: The Number of Taxpayers
Filing Tanning Excise Tax Returns Is Lower Than Expected




                                                     Page 21
